COCKLE
2311 Douglas Street CA
Omaha, Nebraska 68102-1214 Bae, 1635
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site

No. 20-157

EDWARD A. CANIGLIA,
Petitioner,
ve.
ROBERT F. STROM, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the SUPPLEMENTAL BRIEF
OF RESPONDENTS in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 622 words, excluding the parts that are exempted
by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

www.cocklelegalbriefs.com

GENERAL NOTARY-State of Nebraska & Chk
RENEE J. GOSS 9. Lecdra .
My Comm. Exp. September 5, 2023
Notary Public

Affiant

40278
